                     OFFICE   OF   INSPECTOR GENERAL




Audit Report                                                      2014-IT-C-016




   Audit of the CFPB’s Acquisition and
    Contract Management of Select
       Cloud Computing Services




                           September 30, 2014


               BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                    CONSUM ER FIN ANC IAL PR OTEC TION B UR EAU
Report Contributors
  Khalid Hasan, OIG Manager
  Paul Vaclavik, Auditor in Charge
  Joshua Dieckert, IT Auditor
  Peter Sheridan, Senior OIG Manager
  Andrew Patchan Jr., Associate Inspector General for Information Technology


Abbreviations
   AWS                        Amazon Web Services

   CAT                        Compliance Analysis Toolkit

   CFPB                       Consumer Financial Protection Bureau

   CIGIE                      Council of the Inspectors General on Integrity and Efficiency

   CSP                        cloud service provider

   e-discovery                electronic discovery

   FAR                        Federal Acquisition Regulation

   IaaS                       infrastructure as a service

   IT                         information technology

   NIST                       National Institute of Standards and Technology

   OIG                        Office of Inspector General

   PaaS                       platform as a service

   SaaS                       software as a service

   SLA                        service-level agreement

   Treasury                   U.S. Department of the Treasury
                                        Executive Summary:
                                        Audit of the CFPB’s Acquisition and
                                        Contract Management of Select
                                        Cloud Computing Services

2014-IT-C-016                                                                                              September 30, 2014

 Purpose                                            Findings

 In January 2014, the Council of the                Overall, we found that the CFPB’s contracts for cloud computing services
 Inspectors General on Integrity and                with Amazon.com and Deloitte included roles and responsibilities,
 Efficiency initiated a government-wide             information security requirements, and service-level expectations. We also
 review of select agencies’ efforts to adopt        found that the CFPB has established a process to monitor both contractual
 cloud computing technologies. In support of        and service-level requirements for its CSPs, and that the agency collects and
 this initiative, our objective was to review       maintains nondisclosure agreements from contractor personnel to protect
 the Consumer Financial Protection Bureau’s         sensitive information.
 (CFPB) acquisition and contract
 management for Amazon.com’s Amazon                 We identified opportunities for improvement in the procurement and use of
 Web Services and Deloitte’s Compliance             cloud services. Specifically, we found that when the CFPB began operations
 Analysis Toolkit to determine whether              in July 2011, it used a U.S. Department of the Treasury contract with
 requirements for security, service levels, and     Amazon.com to quickly meet its IT needs. The agency, however, did not
 access to records were planned for, defined        perform its own alternatives and cost analysis at that time. In addition, we
 in contracts, and being monitored.                 found that the CFPB’s cloud computing contracts and service-level
                                                    agreements with both Amazon.com and Deloitte did not include clauses
                                                    providing the access needed for electronic discovery and performance of
 Background                                         criminal and noncriminal investigations. We also found that the CFPB’s
                                                    contract with Deloitte did not include a clause granting the Office of
 Cloud computing refers to a model for              Inspector General the right to examine agency records or detail specific
 delivery of information technology (IT)            penalties or remedies for noncompliance with contract terms and service
 services through on-demand access to a pool        levels.
 of configurable computing resources. Federal
 agencies, including the CFPB, are
 increasingly adopting cloud computing to           Recommendations
 lower IT costs and gain efficiencies.
                                                    Our report contains four recommendations to assist the CFPB’s Chief
 The CFPB’s strategic plan emphasizes the           Information Officer in strengthening processes for the acquisition and
 need for a flexible, scalable IT infrastructure    contract management of cloud services. Specifically, we recommend that the
 that is capable of meeting current needs and       Chief Information Officer ensure that alternatives and cost analyses are
 sustaining the agency’s future growth. To          conducted, assess the costs and benefits of negotiating post-award
 help achieve this objective, the CFPB has          agreements with Amazon.com and Deloitte to include relevant requirements
 contracted with seven cloud service                and best practices, ensure that agency guidance used to develop contracts
 providers (CSPs), including Amazon.com,            and service-level agreements with CSPs references applicable Federal
 which hosts the agency’s public website, and       Acquisition Regulation and best practice contract clauses, and ensure that
 Deloitte, which provides an application that       future CFPB contracts for cloud computing services include relevant
 allows financial companies that are                requirements and best practice contract clauses. The Chief Information
 supervised by the CFPB to upload loan file         Officer concurred with our recommendations and outlined actions that have
 data for analysis by the agency’s examiners.       been taken or will be implemented to address our recommendations.


Access the full report: http://oig.consumerfinance.gov/reports/cfpb-cloud-computing-services-sep2014.htm
For more information, contact the OIG at 202-973-5000 or visit http://oig.consumerfinance.gov.
Summary of Recommendations, OIG Report No. 2014-IT-C-016
Rec. no.   Report page no.   Recommendation                                         Responsible office
    1             5          Ensure that an alternatives and cost analysis is               Office of the
                             conducted to inform the selection of cloud               Chief Information Officer
                             computing service providers and models.
    2             7          Assess the costs and benefits of negotiating post-             Office of the
                             award agreements with Amazon.com and Deloitte            Chief Information Officer
                             to include clauses for Inspector General information
                             access, the conduct of forensic investigations and
                             electronic discovery, and penalties for
                             noncompliance with contract and service-level
                             agreement terms, as appropriate.

    3             7          Ensure that the guidance used to develop contracts             Office of the
                             and service-level agreements with cloud service          Chief Information Officer
                             providers references Federal Acquisition
                             Regulation requirements and best practice contract
                             clauses for information access, conduct of forensic
                             investigations and electronic discovery, and
                             penalties for noncompliance, as appropriate.
    4             7          Ensure that future CFPB contracts for cloud                    Office of the
                             computing services include Federal Acquisition           Chief Information Officer
                             Regulation requirements and best practice clauses
                             for information access, the conduct of forensic
                             investigations and electronic discovery, and the
                             assessment of penalties for noncompliance with
                             contract and service-level agreement terms.
September 30, 2014

MEMORANDUM

TO:             Ashwin Vasan
                Chief Information Officer
                Consumer Financial Protection Bureau

FROM:           Andrew Patchan Jr.
                Associate Inspector General for Information Technology

SUBJECT:        OIG Report No. 2014-IT-C-016: Audit of the CFPB’s Acquisition and Contract
                Management of Select Cloud Computing Services

The Office of Inspector General (OIG) has completed its report on the subject audit. In January 2014, the
Council of the Inspectors General on Integrity and Efficiency (CIGIE) initiated a government-wide
review of select agencies’ efforts to adopt cloud computing technologies. The CIGIE initiative focused on
reviewing cloud computing contracts for inclusion of specific clauses and the agencies’ efforts to monitor
the performance of cloud service providers. In support of the CIGIE initiative, our objective was to
review the Consumer Financial Protection Bureau’s (CFPB) acquisition and contract management for
Amazon.com’s Amazon Web Services and Deloitte’s Compliance Analysis Toolkit to determine whether
requirements for security, service levels, and access to records were appropriately planned for, defined in
contracts, and being monitored. We provided CIGIE with responses to a questionnaire it issued to the
select agencies’ OIGs under a separate cover. This report includes specific findings and recommendations
designed to assist the CFPB in improving its acquisition and contract management processes associated
with cloud service providers.

We provided a draft of our report to you for review and comment. In your response, included as appendix
B, you concurred with our recommendations and outlined actions that have been taken, are underway, and
are planned to address our recommendations.

We appreciate the cooperation that we received from CFPB personnel during our review. Please contact
me if you would like to discuss this report or any related issues.

cc:   Sartaj Alag, Chief Operating Officer
      Stephen Agostini, Chief Financial Officer
      Zachary Brown, Chief Information Security Officer
      J. Anthony Ogden, Deputy Inspector General
      Matthew Simber, OIG Manager for Policy, Planning, and Quality Assurance
  Contents



Introduction .........................................................................................................1

         Objectives ....................................................................................................1
         Background ..................................................................................................1
         Federal Guidance and Best Practices for Acquiring Cloud Computing
           Services .................................................................................................2

Finding 1: The CFPB’s Business Case for AWS Did Not Include an
Alternatives and Cost Analysis ..........................................................................4

         Recommendation .........................................................................................5
         Management’s Response .............................................................................5
         OIG Comment ..............................................................................................5

Finding 2: Specific Clauses for Information Access and Penalties for
Noncompliance Were Not Included in CSP Contracts and SLAs ...................6

         Recommendations .......................................................................................7
         Management’s Response .............................................................................8
         OIG Comment ..............................................................................................8

Appendix A: Scope and Methodology ...............................................................9

Appendix B: Management’s Response ...........................................................10
     Introduction



Objectives

          In January 2014, the Council of the Inspectors General on Integrity and Efficiency (CIGIE) 1
          initiated a government-wide review of select agencies’ efforts to adopt cloud computing
          technologies. The initiative focused on reviewing cloud computing contracts for inclusion of
          specific clauses and the agencies’ efforts to monitor the performance of cloud service providers
          (CSPs). In support of the CIGIE initiative, our objective was to review the Consumer Financial
          Protection Bureau’s (CFPB) acquisition and contract management for Amazon.com’s Amazon
          Web Services (AWS) and Deloitte’s Compliance Analysis Toolkit (CAT) to determine whether
          requirements for security, service levels, and access to records were appropriately planned for,
          defined in contracts, and being monitored. We provided CIGIE with responses to a questionnaire
          it issued to the select agencies’ OIGs under a separate cover. Appendix A provides our scope and
          methodology.


Background
          The National Institute of Standards and Technology (NIST) defines cloud computing as a model
          for enabling convenient, on-demand network access to a shared pool of configurable computing
          resources (e.g., networks, servers, storage, applications, and services) that can be rapidly
          provisioned and released with minimal management effort or service provider interaction. NIST
          classifies cloud computing capabilities into the following three models:

               1. Software as a service (SaaS) provides the capability to use the CSP’s applications
                  running on a cloud infrastructure.
               2. Platform as a service (PaaS) refers to the capability to deploy consumer-created
                  or -acquired applications that are developed using programming languages and tools
                  supported by the CSP onto the cloud infrastructure.
               3. Infrastructure as a service (IaaS) enables provisioning of processing, storage, networks,
                  and other computing resources where the consumer is able to deploy, run, and control
                  software applications.2

          Cloud computing offers federal agencies the potential for cost savings through faster deployment
          of computing resources, a decreased need to buy hardware or build data centers, and enhanced
          collaboration capabilities. Recognizing these benefits, the Office of Management and Budget
          issued a Cloud First policy in December 2010, requiring federal agencies to evaluate safe, secure
          cloud computing options before making new investments in information technology (IT).


1.    CIGIE was statutorily established as an independent entity within the executive branch by the Inspector General Reform Act
      of 2008, P.L. 110-409, to address integrity, economy, and effectiveness issues that transcend individual government
      agencies.

2.    National Institute of Standards and Technology, Cloud Computing Synopsis and Recommendations, Special Publication
      800-146, May 2012.



2014-IT-C-016                                                                                                             1
       When it began operations in July 2011, the CFPB relied on the U.S. Department of the Treasury
       (Treasury) for IT systems and services. As the agency transitions IT systems and services from
       Treasury, it has increasingly embraced cloud computing as a model to meet its IT needs in a
       flexible, scalable manner. Specifically, the CFPB has contracted with seven CSPs, including
       Amazon.com and Deloitte. Amazon.com hosts the CFPB’s public website and provides
       infrastructure for the agency’s software development efforts through AWS. Deloitte provides the
       agency’s CAT, which is an application that allows financial companies that are supervised by the
       CFPB to upload loan file data for analysis by the agency’s examiners. As highlighted in table 1,
       the CFPB also uses cloud computing solutions for automated litigation support and for contact
       center services. As of June 2014, the CFPB’s cloud computing contracts were valued at
       approximately $185 million.


       Table 1: Summary of Cloud Computing Technologies Used by the CFPB
                                                                   Type of     Total             Contract
                                                                                                                  Contract
        CSP              Cloud service description                 cloud       contract          initiation
                                                                                                                  length
                                                                   service     value             date
       General              Contact center support and
                                                                    SaaS      $131,000,000       06/08/2011        5 years
       Dynamics                      services
                           CAT, analytical services, and
       Deloitte                                                     SaaS        $25,000,000      05/29/2012        5 years
                                     support
       Treasury                  IT shared services                 PaaS        $9,674,580       10/01/2013        1 year
       Treasury           Financial management services             PaaS        $7,075,604       10/01/2013        1 year
       Verizon
                              Data storage/colocation               IaaS        $4,200,000       01/05/2011a      8 months
       Terremark
       Amazon.com                    Web hosting                    IaaS        $4,200,000       01/05/2011a      8 months
       U.S.
       Department           Automated litigation support            SaaS        $3,997,840       05/12/2012        5 years
       of Justice
       Source: Information taken from the CFPB’s responses to the CIGIE cloud computing survey.
       a
        The CFPB initially contracted with Verizon Terremark and Amazon.com for cloud services on January 5, 2011. The
       contract values and lengths reflected in the table are for the most recent contract extensions the CFPB signed with these
       two companies on January 1, 2014.




Federal Guidance and Best Practices for Acquiring Cloud Computing
Services
       Compared to traditional IT contracts, procuring cloud computing services presents agencies with
       unique and differing risks to manage. For instance, CSPs may store data across multiple facilities
       across the world. Thus, federal agencies must carefully consider who may have access to data and
       under what circumstances. To ensure that federal agencies are procuring cloud services in
       accordance with existing regulations and laws, the Chief Information Officers Council and the
       Chief Acquisition Officers Council issued guidance on February 24, 2012, for creating effective




2014-IT-C-016                                                                                                              2
        cloud computing contracts for the federal government.3 This guidance highlights the importance
        of clearly defining in contracts roles and responsibilities between the CSP and the agency,
        particularly with respect to information access. The guidance also recommends that agencies
        establish service-level expectations and monitor CSP compliance, ensure control of federal data
        through completion of nondisclosure agreements, and include clauses in contracts or agreements
        outlining procedures for conducting forensic investigations and electronic discovery
        (e-discovery).

        Guidance issued by NIST on cloud computing and procurement of IT services also provides best
        practices that agencies may consider when acquiring cloud services. For instance, NIST Special
        Publication 800-146, Cloud Computing Synopsis and Recommendations, May 2012, notes that an
        agency should develop a business case for moving to the cloud that considers the readiness of
        existing applications for cloud deployment, transition and life cycle costs, and security and
        privacy requirements. Further, NIST Special Publication 800-35, Guide to Information
        Technology Security Services, October 2002, presents factors for agencies to consider when
        selecting, implementing, and managing IT security services and providers. These factors can also
        apply to the procurement of cloud services and include consideration of viable alternatives,
        development of cost estimates, and formalization of service-level agreements (SLAs) with
        specific clauses and terms unique to each organization.




3
    The Chief Information Officers Council was established in July 1996 by Executive Order 13011, Federal Information
    Technology, with the mission to improve practices related to the design, acquisition, development, use, sharing, and
    performance of federal government information resources. The Chief Acquisition Officers Council was established in 1999,
    pursuant to section 16 of the Office of Federal Procurement Policy Act, and it seeks to promote effective business practices
    that ensure the timely delivery of products and services to agencies, achieve public policy objectives, and further openness
    in the federal acquisition system.



2014-IT-C-016                                                                                                             3
 Finding 1: The CFPB’s Business Case for AWS Did Not
 Include an Alternatives and Cost Analysis


       As part of planning to acquire cloud services, NIST Special Publication 800-146 states that
       agencies should develop a business case that considers the readiness of existing applications for
       cloud deployment, transition and life cycle costs, and security and privacy requirements. In
       addition, NIST Special Publication 800-35 details an IT security services life cycle that provides
       a framework for use in selecting, implementing, and managing IT security services, including
       cloud computing services. Figure 1 details NIST’s IT security services life cycle. The solution
       phase involves the development of a business case in order to identify the best solution to produce
       the desired future state. Specifically, the business case should include consideration of viable
       alternatives, formation of cost estimates, and completion of an organizational risk analysis. In
       accordance with this life cycle approach, the CFPB is in the process of strengthening its IT capital
       planning program to guide the selection, evaluation, and control of its IT investments. As part of
       this program, the CFPB has created an Investment Review Board designed to review the agency’s
       business cases for IT investment decisions.


                Figure 1: IT Security Services Life Cycle




                Source: NIST SP 800-35, Guide to Information Technology Security Services



       We found that although a business case analysis was completed to guide the CFPB’s acquisition
       of CAT, the alternatives and cost savings analysis part of the business case analysis for the AWS
       cloud computing environment was not completed. An alternatives and cost savings analysis was
       not completed for the AWS contract because the CFPB’s current investment review process was
       not in place when that contract was initially awarded. In addition, CFPB officials informed us that
       at the time the AWS contract was awarded, the agency had recently been established as an



2014-IT-C-016                                                                                        4
       independent agency and it had to rapidly establish its IT infrastructure to support its needs. As
       such, the agency utilized an existing Treasury contract with Amazon.com without performing its
       own alternatives and cost savings analysis.

       The Chief Information Officer stated that as the CFPB continues to transition its IT infrastructure
       from Treasury, the agency will be evaluating various models, including cloud computing and in-
       house approaches, to hosting its infrastructure. Completion of a business case for proposed
       approaches that includes viable alternatives and cost considerations will provide key information
       to assist CFPB officials in selecting an IT infrastructure solution that best meets the needs of the
       agency in a cost-effective manner.


Recommendation
       We recommend that the Chief Information Officer

           1. Ensure that an alternatives and cost analysis is conducted to inform the selection of cloud
              computing service providers and models.


Management’s Response

       The Chief Information Officer concurs with this recommendation and is working to continue to
       mature the agency’s processes, to include conducting the appropriate reviews during source
       selection as well as cost-benefit and trade-off analyses.



OIG Comment
       In our opinion, the actions described by the Chief Information Officer are responsive to our
       recommendation. We plan to follow up on the actions to ensure that the recommendation is fully
       addressed.




2014-IT-C-016                                                                                         5
Finding 2: Specific Clauses for Information Access and
Penalties for Noncompliance Were Not Included
in CSP Contracts and SLAs

         As shown in figure 1 above, once a business case has been reviewed and a service provider has
         been selected as part of the solution phase, the implementation phase begins. This phase
         includes the development of an SLA with specific clauses and terms unique to each
         organization. Federal Acquisition Regulation (FAR) section 52.215-2, Audit and Records,
         requires that contracts for cloud computing include a clause related to granting the OIG access
         and the right to examine any of the directly pertinent records involving transactions related to
         the contract. Further, best practices for creating effective cloud computing contracts in the
         federal government stipulate that penalties for noncompliance with contract and service
         agreement terms, as well as procedures for e-discovery and forensic investigations, should be
         outlined in the contract or the SLA between the agency and the CSP.4

         We found that the CFPB’s contracts for cloud computing services with Amazon.com and
         Deloitte included specific clauses covering roles and responsibilities, information security
         requirements, and service-level expectations. We also found that the CFPB has established a
         process to monitor both contractual and service-level requirements for its CSPs and that the
         agency collects and maintains nondisclosure agreements from contractor personnel to protect
         sensitive information. However, as highlighted in table 2, we identified that the contracts and
         SLAs for both AWS and CAT did not include clauses covering (1) the conduct of forensic
         investigations for criminal and noncriminal purposes and (2) procedures for e-discovery when
         conducting a criminal investigation. Additionally, we found that the CAT contract did not
         include FAR clause 52.215-2 related to granting the OIG access to contractor records or include
         clauses specifying penalties levied on the CSP for noncompliance with contract or SLAs.




4.   See CIO Council and Chief Acquisition Officers Council, in coordination with the Federal Cloud Compliance Committee,
     Creating Effective Cloud Computing Contracts for the Federal Government: Best Practices for Acquiring IT as a Service,
     February 24, 2012, https://cio.gov/wp-content/uploads/downloads/2012/09/cloudbestpractices.pdf.



2014-IT-C-016                                                                                                          6
Table 2: Select Best Practice Contract and SLA Clauses for AWS and CAT
                                                                       Included in
                                                                                      Included in CAT
Contract /SLA clauses                                                  AWS contract
                                                                                      contract or SLA?
                                                                       or SLA?
FAR 52-203-13—Contractors to fully cooperate by disclosing
                                                                         Yes               Yes
sufficient information for law enforcement purposes
FAR 52-239-1—Agency access to the CSP's facilities                       Yes               Yes
Cloud Best Practices—Allowing the CSP to only make changes to
the cloud environment under specific standard operating procedures       Yes               Yes
agreed to by the CSP and the federal agency in the contract
FAR 52-215-2/Cloud Best Practices—OIG access to the contractor's
facilities, installations, operations, documentation, databases, and     Yes               No
personnel
Cloud Best Practices—Penalties for noncompliance with contract
                                                                         Yes               No
and SLA

Cloud Best Practices—Contract includes procedures for agencies to
                                                                          No               No
conduct forensic investigations
Cloud Best Practices—Addressing procedures for e-discovery when
                                                                          No               No
conducting a criminal investigation
Source: OIG analysis of the CFPB’s AWS and CAT contracts.



         CFPB officials informed us that the guidance used to develop the AWS and CAT contracts and
         SLAs did not include references to FAR clause 52.215-2 or the best practice clauses that we
         found to be missing. By ensuing that these clauses are included in cloud computing contracts
         and SLAs, the CFPB will have greater assurance that it will have timely access to agency
         information hosted in the cloud and be able to hold CSPs accountable for noncompliance with
         contract and SLAs.



Recommendations
         We recommend that the Chief Information Officer

              2. Assess the costs and benefits of negotiating post-award agreements with Amazon.com
                 and Deloitte to include clauses for Inspector General information access, the conduct of
                 forensic investigations and e-discovery, and penalties for noncompliance with contract
                 and SLA terms, as appropriate.

              3. Ensure that the guidance used to develop contracts and SLAs with CSPs references
                 FAR requirements and best practice contract clauses for information access, conduct of
                 forensic investigations and e-discovery, and penalties for noncompliance, as
                 appropriate.

              4. Ensure that future CFPB contracts for cloud computing services include FAR
                 requirements and best practice clauses for information access, the conduct of forensic
                 investigations and e-discovery, and the assessment of penalties for noncompliance with
                 contract and SLA terms.



2014-IT-C-016                                                                                            7
Management’s Response

       The Chief Information Officer concurs with recommendation 2 and is undertaking steps to
       assess the feasibility, as well as cost-benefit and trade-off analyses, for the existing contracts
       with both Amazon.com and Deloitte and, where appropriate, to execute post-award agreements
       to help increase assurances that the OIG has timely access to information hosted in these CSPs,
       and that government interests are protected appropriately.

       The Chief Information Officer concurs with recommendation 3. Inclusion of standardized FAR
       clauses, requirements for information access in support of audit and assessments, and penalties
       for less-than-compliant contract execution on the part of the CSPs, are all matters that are in
       scope for the CFPB’s ongoing supply chain guidance maturation goals and improvement
       processes.

       The Chief Information Officer concurs with recommendation 4 and plans to develop a more
       robust repertoire of cloud service acquisition terms and conditions.



OIG Comment
       In our opinion, the actions described by the Chief Information Officer are responsive to our
       recommendation. We plan to follow up on the actions to ensure that the recommendation is
       fully addressed.




2014-IT-C-016                                                                                         8
Appendix A
Scope and Methodology


       In January 2014, CIGIE initiated a government-wide review of select agencies’ efforts to adopt
       cloud computing technologies. The initiative focused on reviewing cloud computing contracts
       for inclusion of specific clauses and the agencies’ efforts to monitor the performance of CSPs.
       In support of the CIGIE initiative, our objective was to review the CFPB’s acquisition and
       contract management for AWS and CAT to determine whether requirements for security,
       service levels, and access to records were appropriately planned for, defined in contracts, and
       being monitored.

       To accomplish our audit objective, we developed an inventory of cloud computing–based
       systems by surveying CFPB officials responsible for the procurement, maintenance, and
       monitoring of the agency’s cloud contracts. To perform our assessment, we judgmentally
       selected the AWS and CAT cloud computing–based systems based on their respective service
       models, contract lengths, total contract values, and associated risk categorizations. To perform
       our review, we analyzed the AWS and CAT contracts, SLAs, and security documentation.
       Further, we interviewed managers and staff at the CFPB, as well as contracting officers at
       Treasury who were responsible for the development of the AWS and CAT contracts.

       We performed our fieldwork from February 2014 through June 2014. We conducted this
       performance audit in accordance with generally accepted government auditing standards. Those
       standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
       provide a reasonable basis for our findings and conclusions based on our audit objectives. We
       believe that the evidence obtained provides a reasonable basis for our findings and conclusions
       based on our audit objectives.




2014-IT-C-016                                                                                        9
Appendix B
Management’s Response




2014-IT-C-016           10
2014-IT-C-016   11
2014-IT-C-016   12
2014-IT-C-016   13
